Before the Committee on Transportation and Infrastructure
Subcommittee on Railroads, Pipelines, and Hazardous Materials
United States House of Representatives
For Release on Delivery

                          Actions Needed
Expected at
2:00 p.m. EDT
Wednesday
June 25, 2008
CC-2008-090               To Enhance
                          Pipeline Security



                           Statement of
                           The Honorable Calvin L. Scovel III
                           Inspector General
                           U.S. Department of Transportation
Chairwoman Brown, Ranking Member Shuster, and Members of the Subcommittee:

We are pleased to be here today to discuss pipeline security issues and the actions
taken by and needed from the Departments of Transportation (DOT) and Homeland
Security (DHS) to enhance the security of the Nation’s pipeline infrastructure.

This infrastructure is an elaborate network of approximately 2 million miles of
pipelines that move millions of gallons of hazardous liquids and billions of cubic feet
of natural gas daily. Within the United States, there are about 2,200 1 natural gas
pipeline operators and 300 hazardous liquids pipeline operators. The Pipeline and
Hazardous Materials Safety Administration (PHMSA) within DOT oversees the
safety of the Nation’s pipeline system, while the Transportation Security
Administration (TSA) within DHS oversees security-related matters.

Over the past several years, we have issued numerous reports and testimonies on
pipeline safety and security challenges facing the Department and industry. We have
seen considerable progress by PHMSA in closing out congressional mandates,
including mandates from the Pipeline Inspection, Protection, Enforcement, and Safety
(PIPES) Act of 2006. 2 This is the direct result of attention from Congress, including
this Subcommittee, and from the highest levels of DOT management.

In September 2004, DOT and DHS entered into a Memorandum of Understanding
(MOU) to facilitate the development and deployment of transportation security
measures. In our March 2006 testimony before the House Subcommittee on
Highways, Transit, and Pipelines, 3 we recognized that finalizing the MOU was the
first critical step in what is a very dynamic process. We pointed out, however, that
the roles and responsibilities between PHMSA and TSA still needed to be clarified
through a security annex to the MOU that specifically related to pipelines. PHMSA
and TSA signed a pipeline security annex in August 2006.

As this Subcommittee is aware, the PIPES Act directed us to assess PHMSA’s and
TSA’s actions to implement the pipeline security annex. We issued our report last
month 4 and recommended several actions that PHMSA, in collaboration with TSA,
must take with a sense of urgency, as the current situation is far from an “end state”
for enhancing the security of the Nation’s pipeline system.

My testimony today will focus on these needed actions across the three following
areas:



1
    Of the 2,200 operators of natural gas pipelines, there are approximately 1,300 operators of natural gas distribution
    pipelines and 880 operators of natural gas transmission pipelines.
2
    Pub. L. No. 109-468 (2006).
3
    OIG Testimony Number CC-2006-023, “Pipeline Safety: Progress and Remaining Challenges,” March 16, 2006.
    OIG reports and testimonies are available on our website: www.oig.dot.gov.
4
    OIG Report Number AV-2008-053 “Actions Needed To Enhance Pipeline Security,” May 21, 2008.

                                                                                                                      1
    • PHMSA’s and TSA’s progress toward implementing the security annex and the
      challenges that remain. The pipeline security annex required PHMSA and TSA
      to jointly develop an action plan by February 2007 to implement the annex
      provisions and program elements. Implementing the annex is important because it
      includes program elements such as identifying critical infrastructure and key
      resources and developing security regulations, guidelines, and directives.

      In December 2007, we were concerned about an overall lack of progress in several
      areas, and we later communicated these concerns to PHMSA and TSA. At the
      time, the agencies had neither finalized the action plan nor completed 9 of the
      11 annex program elements because they had no deadlines to foster timely
      decisions and reviews.

      To their credit, both PHMSA and TSA began to address these issues early this
      year, and considerable progress has been made. The two agencies developed a
      new action plan and began addressing outstanding program elements and
      associated initiatives. This progress, however, began nearly a year after the
      deadline agreed to in the annex, and the action plan still does not contain all
      initiatives required by the annex. Going forward, both agencies must sustain the
      progress made to finalize and effectively execute the annex provisions and
      program elements.

    • The need for clearer lines of authority to address security oversight and
      enforcement for operators of liquid natural gas (LNG) facilities. 5 Although the
      annex was an important step, it still does not explicitly state which agency has
      primary oversight and enforcement authority for LNG operators. As a result, there
      is a lack of clearly defined roles at the working level. Both PHMSA and TSA
      review pipeline operators’ compliance with their respective security guidance.
      TSA’s guidance, however, is voluntary and will remain unenforceable unless a
      regulation is issued to require industry compliance. Conversely, PHMSA is able
      to enforce its LNG security regulations, which existed prior to the creation of TSA
      in 2001. This can cause pipeline operators to receive conflicting or duplicative
      guidance and create confusion as to which agency they should look to as the lead
      Federal security regulator. To resolve issues of overlapping authority, PHMSA
      and TSA should take steps to amend the annex.

    • Ways to maximize PHMSA’s and TSA’s resources for assessing pipeline
      operators’ security plans and guidance. Last year, Congress passed the
      Implementing Recommendations of the 9/11 Commission Act of 2007
      (9/11 Commission Act), which requires DOT and DHS to develop a plan to review
      the 100 most critical operators’ security plans and critical facilities by
      August 2008. The act also stipulates that if DHS determines that regulations are

5
    LNG is natural gas cooled to an extremely low temperature, which causes it to liquefy. There are 113 LNG facilities in
    the United States.

                                                                                                                        2
   appropriate, it is required to consult with DOT. One of the two agencies shall then
   promulgate the regulations and perform necessary inspection and enforcement
   functions.

   We see areas where PHMSA and TSA can maximize their resources to effectively
   measure operators’ compliance with existing guidance or assess the adequacy of
   the guidance. Specifically, (1) PHMSA should participate in these inspections on
   a regular basis to ensure effective and timely execution of this congressional
   mandate—especially given its level of expertise in security-related matters—and
   (2) PHMSA and TSA should develop testing protocols and perform vulnerability
   tests to ascertain whether unauthorized individuals can penetrate operators’ critical
   infrastructure (including cyber attacks).

Before I discuss these key points in further detail, I would like to briefly touch on a
few of the challenges the agencies face in securing the Nation’s pipeline system.

Safeguarding the Nation’s massive pipeline infrastructure from catastrophic events
(i.e., terrorism or natural disasters) is a continuing challenge for DOT and DHS. In
2005, Hurricane Katrina devastated the Gulf Coast region and demonstrated the
vulnerabilities of the Nation’s critical infrastructure. Loss of electrical power to
pumping stations forced three major pipeline operators to shut down. This eliminated
most fuel sources to the entire eastern seaboard and caused a vast array of economic
disruptions, including hoarding and severe price spikes.

It should be noted that the most frequently targeted mode of transportation by
terrorists worldwide is pipeline systems. In Colombia, for example, rebels have
bombed the Caño Limón oil pipeline over 600 times since 1995. Terrorist plots
against pipelines have also occurred within the United States.

 • In June 2007, the U.S. Department of Justice arrested members of a terrorist group
   planning to attack jet fuel pipelines and storage tanks at the John F. Kennedy
   International Airport in New York.
 • In November 2007, a U.S. citizen was sentenced to 30 years in Federal prison for
   plotting to help an alleged al-Qaeda operative blow up U.S. oil pipelines and
   refineries.

In addition, pipeline incidents can have deadly implications, such as the
August 19, 2000, natural gas transmission pipeline (30-inch-diameter) that ruptured
adjacent to the Pecos River near Carlsbad, New Mexico. The released gas ignited and
burned for 55 minutes. Twelve people who were camping under a concrete-decked
steel bridge that supported the pipeline across the river were killed, and their three
vehicles were destroyed. Two nearby steel suspension bridges for gas pipelines
crossing the river were also extensively damaged.


                                                                                      3
These events underscore the need for a well-defined, well-coordinated, interagency
approach to prevent, detect, and respond to both safety and security events. In today’s
constrained fiscal environment, DOT and DHS must leverage their resources to secure
the Nation’s pipelines. TSA’s pipeline security program—with just 11 personnel—
has the biggest challenge to effectively oversee security for the vast network of
natural gas and hazardous liquids pipeline operators. Although PHMSA has regional
offices and about 80 inspectors nationwide, it partners with state agencies—which
have over 400 inspectors—to oversee and enforce compliance with pipeline safety
requirements, primarily at operators of natural gas distribution pipeline systems. It is
therefore incumbent upon PHMSA, TSA, and their state partners to work together
effectively to enhance the security of the Nation’s pipeline infrastructure.

It is against this backdrop that I will discuss my three points on pipeline security in
greater detail.

PHMSA AND TSA HAVE MADE PROGRESS TOWARD IMPLEMENTING
THE SECURITY ANNEX, BUT CHALLENGES REMAIN
PHMSA and TSA have taken initial steps toward formulating an action plan to
implement the provisions of the annex; however, further actions are needed as the
current situation is far from an “end state” for enhancing the security of the Nation’s
pipeline system. After PHMSA and TSA signed the annex, they designated a joint
working group to develop a multi-year action plan for implementing the provisions
and program elements of the annex. The working group was to complete its efforts on
developing the action plan by February 2007.

In December 2007, we were concerned about an overall lack of progress in several
areas, and we later communicated these concerns to PHMSA and TSA. At the time,
the agencies had neither finalized the action plan nor completed 9 of the 11 annex
program elements because they had no deadlines to foster timely reviews. These
elements include identifying critical infrastructure and key resources; performing risk
assessments; strategic planning; developing regulations, guidelines, and directives;
and conducting inspection and enforcement actions (see exhibit).

Further, the December 2007 draft action plan did not contain several initiatives called
for in the annex, which were specifically designed to enhance coordination efforts.
These include initiatives for (1) PHMSA to provide TSA with data collected during
PHMSA’s security inspections or reviews of security plans and (2) TSA to coordinate
with PHMSA on observations or recommended measures—derived from the results of
criticality and vulnerability assessments of facilities—to evaluate whether those measures
conflict with or adversely affect current or planned safety requirements. This
coordination is essential to prevent security recommendations that could
unintentionally contradict safety regulations and put the safety of the Nation’s
pipelines at risk.


                                                                                        4
Also, under the annex, PHMSA and TSA agreed to develop a plan with specific
timeframes for implementing the program elements. The December 2007 plan,
however, did not contain timeframes to: (1) develop a procedure for requesting
special permits to install pipeline facilities in the event of a security incident,
(2) provide training to TSA staff on technical issues related to PHMSA’s mission, or
(3) perform a study on the petroleum pipeline network supply. Without interim
deadlines and accountability, there is no guarantee the action plan will be finalized
and properly executed.

To their credit, both PHMSA and TSA began to address these concerns in
January and February of this year, and considerable progress has been made. The two
agencies developed a new action plan and began addressing outstanding program
elements and associated initiatives. The majority of initiatives are now planned for
completion by the end of 2009. We note that this progress, however, began nearly a
year after the deadline agreed to in the annex. In addition, we are concerned that the
new action plan still does not contain initiatives for (1) the agencies to develop
protocols for ongoing information sharing and participation in their respective
research and development planning and (2) TSA to coordinate with PHMSA on
observations or recommended measures from vulnerability assessments.

Going forward, both agencies must sustain the progress made to finalize and
effectively execute the annex provisions and corresponding program elements and
ensure they coordinate efforts.

CLEARER LINES OF AUTHORITY ARE NEEDED TO ADDRESS
SECURITY OVERSIGHT AND ENFORCEMENT FOR LNG FACILITY
OPERATORS
A central goal of the annex was to delineate clear lines of authority and prevent
duplication of effort. Yet, the annex does not explicitly state which agency will be
responsible for the enforcement and oversight of LNG facilities. Since both PHMSA
and TSA can conduct reviews of LNG facilities, a clear line of authority does not
exist. This creates the potential for duplicative efforts and confusion among LNG
operators as to which agency they should look to for guidance as the lead Federal
security regulator.

By law, TSA holds the lead authority and primary responsibility for security activities
in pipelines. Conversely, PHMSA has—and enforces—its own security regulations
specific to LNG facility operators 6 that existed prior to the creation of TSA in 2001.
Under PHMSA regulations, LNG facilities must have, among other things, a
(1) security manual, (2) security training program for employees, (3) security
communications system, and (4) security lighting and monitoring system. PHMSA
inspects LNG facilities to ensure they meet these requirements. The LNG facilities
regulations are the only PHMSA pipeline regulations that specifically delineate
6
    Liquefied Natural Gas Facilities: Federal Safety Standards, 49 C.F.R. § 193 (2007).

                                                                                          5
operators’ security responsibilities in detail. For hazardous liquid and gas pipelines,
PHMSA has other pipeline safety regulations that require pipeline operators to
prevent vandalism and unauthorized use of equipment.

While PHMSA continues to oversee the security of LNG facilities, TSA has stated
that it can issue security directives, but it has not done so. These directives would
allow TSA to take enforcement actions against pipeline operators. TSA currently
conducts reviews of pipeline operators’ compliance with voluntary guidance, but it
neither has regulations related to pipeline security nor takes enforcement actions
against pipeline operators.

To further complicate the matter, the United States Coast Guard—a DHS agency
responsible for marine and port security—also has authority to oversee and enforce its
security regulations for operators of LNG facilities. 7 Several of the operators’ LNG
facilities are located in the Nation’s ports or along its eastern seaboard. PHMSA, the
Coast Guard, and the Federal Energy Regulatory Commission8 executed an
interagency agreement for safety and security reviews of LNG facilities in 2004 to
“avoid duplication of effort, and to maximize the exchange of relevant information
related to the safety and security aspects of LNG facilities and the related marine
concerns.”

In our view, a similar approach should be taken with the pipeline security annex to
resolve the issue of overlapping authority between PHMSA and TSA. The annex
should be amended to specifically delineate the agencies’ roles and responsibilities in
overseeing and enforcing security regulations for LNG operators.

PHMSA AND TSA NEED TO MAXIMIZE THEIR RESOURCES FOR
ASSESSING PIPELINE OPERATORS’ SECURITY PLANS AND
GUIDANCE
Congress continues to emphasize the importance of securing the Nation’s pipelines
and related infrastructure. In August 2007, Congress passed the 9/11 Commission
Act. 9 The act mandates the following actions related to pipeline security for the
Secretary of Homeland Security and the Secretary of Transportation:

    • DHS, in consultation with DOT, is required to establish a program for reviewing
      pipeline operators’ adoption of recommendations in a 2002 PHMSA security
      guidance document. The PHMSA guidance recommended that, among other
      things, pipeline operators: (1) identify critical facilities, (2) develop and
      implement a corporate security plan, and (3) review the corporate security plan on
      an annual basis and revise as necessary to reflect changing conditions. The
      program must also include a plan to review pipeline security plans and critical
7
    Maritime Security: Facilities, 33 C.F.R. § 105 (2007).
8
    The Federal Energy Regulatory Commission is responsible for authorizing the construction of onshore LNG facilities and
    also conducts environmental, safety and security reviews of LNG plants and related pipeline facilities.
9
    Pub. L. No. 110-53 (2007).

                                                                                                                        6
       facility inspections by May 2008. TSA is currently reviewing the 100 most
       critical operators and determining how operators are complying with PHMSA’s
       2002 security guidance.

     • DHS and DOT are required to develop and implement a plan for reviewing and
       inspecting the 100 most critical pipeline operators’ pipeline security plans and
       critical facilities. 10 The agencies are required to develop and implement a plan by
       August 3, 2008. According to TSA, it is currently reviewing the 100 most critical
       operators but must still develop a list of those operators’ most critical facilities so
       that facility reviews can be planned.

     • DHS and DOT shall develop and transmit to pipeline operators security
       recommendations for natural gas and hazardous liquid pipelines and pipeline
       facilities by February 2009.

     • If DHS determines that regulations are appropriate, it is required to consult with
       DOT. One of the two agencies shall then promulgate the regulations and perform
       necessary inspection and enforcement functions.

To determine whether additional security regulations are needed, PHMSA and TSA
will need to evaluate and test the adequacy of existing security standards—as agreed
to under the annex. The need for new security regulations will be partly determined
by the degree to which pipeline operators are following existing guidance.

The current security guidance under TSA, however, is not mandatory and will remain
unenforceable unless a regulation is issued to require industry compliance. Also, the
security guidance for operators of natural gas and hazardous liquids pipelines is not
comprised of a set of prescriptive standards that define how a requirement is to be
achieved. Instead, the guidance is general in nature and is intended to provide an
overview of security issues in industry and broad guidance on effective policies and
practices.

To effectively assess whether existing security guidance is adequate, PHMSA and
TSA need to take the following actions:

     • Ensure PHMSA is actively engaged in inspecting the 100 most critical operators’
       security plans and developing a list of critical facilities for review. To date,
       PHMSA’s role has been limited to an “as needed” basis. According to PHMSA, it
       had not regularly attended past TSA security reviews of pipeline operators. In our
       opinion, to ensure effective and timely execution of this mandate, PHMSA should
       participate in these inspections on a regular basis, especially given its level of
       expertise in security-related matters.

10
     PHMSA security guidance defines a facility’s critical categorization by three factors: (1) whether it is a viable terrorist
     target, (2) how important it is to the Nation’s energy infrastructure, and (3) how likely it is to be used as a weapon to harm
     people.

                                                                                                                                 7
 • Develop testing protocols and perform vulnerability tests to ascertain, among other
   things, if unauthorized individuals can penetrate operators’ critical infrastructure,
   including cyber attacks against critical infrastructure. Currently, there are no plans
   to develop protocols and conduct vulnerability tests. Without testing, there is no
   way to effectively measure operators’ compliance with existing guidance or assess
   the adequacy of the guidance.

PHMSA and TSA are making good progress in their efforts to communicate and
coordinate on pipeline security matters, and they must continue to work together to
develop a pipeline security strategy that maximizes the value and efficiency of both
agencies’ efforts. This is a fundamental factor in enhancing pipeline security.

That concludes my statement. I would be glad to answer any questions that you or
other Members of the Subcommittee might have.




                                                                                       8
EXHIBIT. PROGRAM ELEMENTS IN THE PIPELINE SECURITY
ANNEX
   Program Element                                            Description

1. Identification of Critical    The agencies agreed to review existing definitions of criticality and
Infrastructure/Key Resources     consider the need to refine definitions. To support TSA efforts in this
and Risk Assessments             area, PHMSA agreed to provide compliance data, other information
                                 collected in the course of security inspections or reviews of security
                                 plans (including those required under 49 CFR § 172.800), and
                                 activities of transportation carriers and shippers.

                                 Also, TSA will coordinate with PHMSA on observations or
                                 recommended measures derived from the results of criticality and
                                 vulnerability assessments, including on pipelines, to evaluate whether
                                 they conflict with or adversely affect current or planned safety
                                 requirements.

2. Strategic Planning            The agencies will seek consensus concerning measures to reduce risk
                                 and minimize consequences of emergencies involving pipeline
                                 infrastructure. Also, the agencies will identify initiatives and activities
                                 for achieving performance goals and will develop a program
                                 framework and timetable for their completion.

3. Standards, Regulations,       The agencies will seek early and frequent coordination in the
Guidelines, and Directives       development standards, regulations, guidelines, or directives affecting
                                 transportation security; identify best practices; and explore
                                 opportunities to build on existing standards-setting activities. In the
                                 course of discharging their safety and security missions, the agencies
                                 will review the adequacy of existing standards in the private and public
                                 sector, identifying any gaps that should be addressed through
                                 rulemaking, guidelines, or directives.

4. Inspections and Enforcement   The agencies will explore opportunities for collaboration in inspection
                                 and enforcement activities, with the objective of maximizing the use of
                                 available resources and targeting enforcement resources on the basis of
                                 system risks. The agencies will immediately develop procedures for
                                 referral of safety and security issues to PHMSA and TSA, respectively;
                                 inventory existing inspection and enforcement resources; and develop
                                 specific plans for closer coordination in the deployment and use of
                                 inspectors, including any necessary additional training.

5. PHMSA Technical Support       TSA can ask for PHMSA’s support to develop, staff, implement, or
                                 enforce regulations, orders, directives, plans, programs, or other
                                 measures. TSA can also ask for PHMSA support to conduct security
                                 reviews during an elevated security threat.

6. Sharing Information During    The agencies agreed to promptly share information about emergency
Emergency Response               situations that implicate the missions and interests of each other.




Exhibit. Program Elements in the Pipeline Security Annex                                                       9
7. Public Communication,      The agencies will review existing protocols for public communication
Education, and Outreach       concerning security-related matters, specifically including review of
                              existing protocols for publication of information contained in the
                              national pipeline mapping system (a map of the Nation’s pipelines
                              developed by PHMSA).

8. Communicating Protective   The agencies agreed to consult with one another before disseminating
Measures to Affected          security requirements, voluntary standards, and guidelines that impact
Organizations                 security to the public.

9. Research and Development   The agencies will review their safety- and security-related projects and
                              identify opportunities to collaborate and support their strategic plan
                              through identification, development, and testing of new or modified
                              technologies or processes. Also, the agencies will establish protocols
                              for ongoing information sharing and participation in their respective
                              research and development planning processes.

10. Legislative Matters       The agencies are to consult with each other as soon as possible on the
                              development of proposed legislation, comments on legislative
                              proposals, draft testimony or briefings to be given before congressional
                              bodies or staff, and answers to questions for the record.

11. Budget                    The agencies agreed to communicate throughout the budget
                              development, justification, and execution process in order to develop
                              and present a coordinated position on transportation security funding
                              matters and to avoid duplicative requests for funding in connection
                              with pipeline and hazardous material transportation security.




Exhibit. Program Elements in the Pipeline Security Annex                                                 10
